CERTIFICATE OF SERVICE
I am counsel of record for Charles Don Flores, appointed to represent him
under 18 U.S.C. § 3599, and I am a member of the U.S. Supreme Court Bar. On
September 26, 2020, I contacted Jaclyn O’Connor Lambert, counsel of record for the
Respondent in this case, who agreed, on September 27, 2020, to receive electronic
service of this filing. On September 30, 2020, I sent the following documents to
counsel for the Respondent:
•

a Motion for Leave to Proceed In Forma Pauperis;

•

a Petition for a Writ of Certiorari; and

•

Appendices A-E.

These documents were sent to:
Jaclyn O’Connor Lambert
Assistant District Attorney
Dallas County District Attorney
Jaclyn.OConnor@dallascounty.org
Thus, I accomplished service as permitted by this Court’s April 15, 2020, Order.
DATED: September 30, 2020
Respectfully submitted,
/s/ Gretchen Sims Sween
Gretchen Sims Sween,
Counsel of Record
P.O. Box 5083
Austin, Texas 78763-5083
TEL: (214) 557.5779
gsweenlaw@gmail.com
Counsel for Petitioner

